/

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1267
RONALD E. BYERS,
Petitioner,
v.

COMMISSIONER OF INTERNAL REVENUE,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
PETITION FOR REHEARING

RONALD E. BYERS
Petitioner
16808 Prospect Place
Wayzata, MN 55391
(952) 476-2199

RECEIVED
JUN - 8 2021

*

Byers v. CIR
No. 20-1267

-1-

MATERIAL FACTS THAT SUPPORT REHEARING
In this tax collection due process case, Ronald E. Byers timely
petitioned this Court to "to review its own power to render a United
States Tax Court decision final" under 26 U.S.C. § 7481(a)(2)(B).
That law provides that the Court's denial of a certiorari petition
renders an underlying United States Tax Court decision (affirmed by a
United States Court of Appeals judgment) "final."
Mr. Byers' certiorari petition presented the Court with two
questions:
1.

Is 26 U.S.C. § 7481(a)(2)(B) jurisdictional?

2.

Must a party who moves the U.S. Tax Court for post-decision

relief—while this Court reviews his certiorari petition—show that he
satisfies a "fraud on the court" exception to decision finality?
The Acting United States Solicitor General waived the
Commissioner of Internal Revenue's right to respond to Mr. Byers'
certiorari petition. On May 3, 2021, the Court (with Justice Kavanaugh
taking no part in the consideration or decision) denied the petition.
For cause, Mr. Byers timely petitions the Court for rehearing.

X

(

Byers v. CIR
No. 20-1267

-2-

\

GROUNDS FOR GRANTING REHEARING
1.

The jurisdictional questions that Mr. Byers presents here

are important enough to warrant this Court's further reyiew. Those
questions involve this Court's statutory power to render a United States
Tax Court decision final and unreviewable. They implicate this Court's
V.

recent jurisdictional jurisprudence.
2.

After Mr. Byers had filed his certiorari petition, the U.S.

Solicitor General's office filed with this Court a response brief in two
cases that presented the same question:
"Whether the statutory deadline for seeking Tax Court review of
an income-tax deficiency determination made by the Commissioner of
Internal Revenue, 26 U.S.C. 6213(a), is jurisdictional."
See Organic Cannabis Foundation, LLC, dba Organicann Health Center
v. Commissioner of Internal Revenue, U.S. S. Ct. Case No. 20-1014;
Northern California Small Business Assistants, Inc. v. Commissioner of
Internal Revenue, U.S. S. Ct. Case No. 20-1031.
3.

Those recent U.S. Solicitor General response briefs raise a

jurisdictional argument that supports Mr. Byers' certiorari bid here. In
them, the Solicitor General argues that Congress will be deemed to
(

i

If

Byers v. CIR
No. 20-1267

-4-

500, 515-516 (2006) (footnote and citation omitted). Yet "when
Congress does not rank a [procedural bar] as jurisdictional, courts
should treat the restriction as non-jurisdictional in character." Arbaugh
at 515-516.
6.

Yes, the Court denied the Organic Cannabis Foundation and

the Northern California Small Business Assistants petitioners a
certiorari writ too, also on May 3, 2021. Yet the Solicitor General's
opposition to the petitions there supports Mr. Byers' petition here. For
26 U.S.C. § 6213(a) (authorizing in general the filing of a United States
Tax Court petition within 90 days) is indeed jurisdictional. But to reach
that legal conclusion, the Solicitor General had to rely on arguments
that "clearly show" that 26 U.S.C. § 7481(a)(2)(B) is not jurisdictional.
7.

So this Court's denial of a certiorari petition does render an

underlying United States Tax Court decision, affirmed by a United
States Court of Appeals judgment, "final." But it does not also make 26
U.S.C. § 7481(a)(2)(B) jurisdictional. This Court's certiorari denial
power therefore does not deprive the Tax Court of the post-decision
review power it already possessed.

y
y

Byers v. CIR
No. 20-1267
8.

-5-

Both the D.C. Circuit Court of Appeals and the Tax Court

below, however, held that 26 U.S.C. § 7481(a)(2)(B) is jurisdictional.
Both courts held further that the Tax Court loses its jurisdiction to act
on a post-decision motion for relief the moment this Court denies the
taxpayer's certiorari petition. They concluded that the taxpayer must
anticipate this Court's certiorari petition denial.
9.

Indeed, each court now requires that a taxpayer's post-

decision motion to the Tax Court raise a "fraud on the court" argument.
As those courts see it, that preemptive argument would both avoid Tax
Court decision finality and preserve the Tax Court's jurisdiction. That
is so, each court opined, even when the taxpayer files his post-decision
motion with the Tax Court months before this Court denies his
certiorari petition.
10.

Under this Court's recent jurisdictional jurisprudence, as

articulated by the Solicitor General after Mr. Byers filed his certiorari
petition, the courts' holdings below were harmful errors. Although the
Court has denied Mr. Byers' certiorari petition, it has ample reason to
grant his petition now.

Byers v. CIR
No. 20-1267

-6-

CONCLUSION
The Court has here an ideal vehicle it can use to clarify its
jurisdictional jurisprudence. It has cautioned the lower courts not to
slap the jurisdictional label on each statutory procedural bar. The
Court could emphasize that caution if it holds that "this Court's own
certiorari denial power, as Congress applies it to United States Tax
Court decisions in 26 U.S.C. § 7481(a)(2)(B), is non-jurisdictional."
That holding would send both bench and bar a powerful message:
cure your jurisdiction addiction.
For the reasons he states in both petitions he has filed here, Mr.
Byers requests that the Court (a) grant this rehearing petition, (b)
vacate its order that denies him a certiorari writ, and (c) order the U.S.
Solicitor General to respond to his certiorari petition.
Respectfully submitted:

DATE:

'

ronaldeTBers
Petitioner
16808 Prospect Place
Wayzata, MN 55391
(952) 476-2199

/'

J
-7-

Byers v. CIR
No. 20-1267

UNITED STATES SUPREME COURT RULE 44.2
CERTIFICATE OF COMPLIANCE
Petitioner Ronald E. Byers hereby certifies that this Petition For
Rehearing complies with S. Ct. R. 44.2 because (a) the petition is
limited to substantial circumstances, events, and grounds that arose
after this Court filed the certiorari petition, and (b) Mr. Byers presents
the petition not for purposes of delay, but rather in a good-faith belief
that it is meritorious.

DATE:

T

RONALD E. BITERS
Petitioner
16808 Prospect Place
Wayzata, MN 55391
(952) 476-2199

